No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
STATE OF CALIFORNIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 7th
day of August, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,986
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 7, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL.
SIERRA CLUB, ET AL.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL.
STATE OF CALIFORNIA, ET AL.

DROR LADIN
ACLU FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2500
DLADIN@ACLU.ORG
JAMES FRED ZAHRADKA, II
ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
OF CALIFORNIA
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612
JAMES.ZAHRADKA@DOJ.CA.GOV
ERIC OLSON
OFFICE OF THE ATTORNEY GENERAL
STATE OF COLORADO
1300 BROADWAY
10TH FLOOR
DENVER, CO 80203
MARGARET Q. CHAPPLE
DEPUTY ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
STATE OF CONNECTICUT
55 ELM STREET
PO BOX 120
HARTFORD, CT 06106
DAVID JAY LYONS
OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF JUSTICE
820 N. FRENCH STREET
WILMINGTON, DE 19801

ROBERT TADAO NAKATSUJI
OFFICE OF THE HAWAII ATTORNEY GENERAL
425 QUEEN STREET
HONOLULU, HI 96813
CALEB RUSH
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601
SUSAN P. HERMAN
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
6 STATE HOUSE STATION
AUGUSTA, ME 04333
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
200 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202
ABIGAIL TAYLOR
OFFICE OF THE MASSACHUSETTS
ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MA 02108
BERNARD ERIC RESTUCCIA
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
525 W. OTTAWA
670 LAW BUILDING
LANSING, NI 48913
JACOB CAMPION
OFFICE OF THE ATTORNEY GENERAL
445 MINNESOTA STREET
ST. PAUL, MN 55101

JEREMY FEIGENBAUM
OFFICE OF THE NEW JERSEY
ATTORNEY GENERAL
HUGHES JUSTICE COMPLEX
25 MARKET STREET
FIRST FLOOR
TRENTON, NJ 08625
TANIA MAESTAS
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
STEVEN C. WU
DEPUTY ATTORNEY GENERAL
NEW YORK STATE OFFICE OF THE
ATTORNEY GENERAL
28 LIBERTY STREET
23RD FLOOR
NEW YORK, NY 10005
HEIDI PARRY STERN
OFFICE OF THE NEVADA
ATTORNEY GENERAL (LAS VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
JONA J. MAUKONEN
OREGON DEPARTMENT OF JUSTICE
1262 COURT STREET, NE
SALEM, OR 97301
JUSTINE JAMES SULLIVAN
SPECIAL ASSISTANT ATTORNEY GENERAL
OFFICE OF ATTORNEY GENERAL
STATE OF RHODE ISLAND
150 SOUTH MAIN STREET
PROVIDENCE, RI 02903
BENJAMIN DANIEL BATTLES
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
109 STATE STREET
MONTPELIER, VT 05609-1001

MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219
GABE JOHNSON-KARP
ASSISTANT ATTORNEY GENERAL
WISCONSIN DEPARMENT OF JUSTICE
17 WEST MAIN STREET
MADISON, WI 53707
608-267-8904

